U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

November 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rodolfo Segura-Virgen v. United States of America,
S.Ct. No. 20-6066

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 15,
2020, and placed on the docket on October 20, 2020. The government’s response is due on
November 19, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including December 21, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-6066
SEGURA-VIRGEN, RODOLFO
USA

JOSEPH STEPHEN CAMDEN
OFFICE OF FEDERAL PUBLIC DEFENDER
701 EAST BROAD STREET
SUITE 3600
RICHMOND, VA 23219
804-565-0800

